HHS/OIG, Audit - "Review of North Dakota's Accounts Receivable System for
Medicare Provider Overpayments" (A-07-05-03065)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of North Dakota's
Accounts Receivable System for Medicare Provider Overpayments" (A-07-05-03065)
January 20, 2006
Complete Text of Report is available in PDF format (488 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether North Dakota reported Medicaid
provider overpayments pursuant to Federal regulations. North Dakota did not
report all Medicaid provider overpayments pursuant to Federal regulations.
Specifically, as of March 31, 2005, it had not reported 132 Medicaid
overpayments. The Federal share of the 132 unreported overpayments totaled
$684,025. North Dakota did not report overpayments on time because its policies
and procedures were insufficient to ensure timely reporting of all overpayments.
Specifically, it waited to report provider overpayments until it had (1)
collected them from the provider or (2) finalized the cost report settlement.
We recommended that North Dakota return the Federal share of identified
Medicaid overpayments totaling $684,025 to the Federal Government and improve
its policies and procedures to ensure all overpayments are reported pursuant to
Federal requirements. The State agency generally concurred with our findings and
recommendations.